Before the Committee on Transportation and Infrastructure
Subcommittee on Aviation
United States House of Representatives


For Release on Delivery
Expected at
                          Falsification of FAA
10:00 a.m. EDT
Tuesday
July 17, 2007
                          Airman Medical
CC-2007-063
                          Certificate Applications by
                          Disability Recipients




                          Statement of
                          Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
                                                                                                1

Mr. Chairman and Members of the Subcommittee:

We appreciate the opportunity to testify today regarding falsifications of the
Federal Aviation Administration’s (FAA’s) “Application for Airman Medical
Certificate.” Pilots must have a valid Airman Medical Certificate before they are
allowed to operate an aircraft. Our testimony today is primarily based on an
investigation called “Operation Safe Pilot,” which we conducted with the Social
Security Administration’s (SSA’s) Office of Inspector General (OIG) and U.S.
Attorney Offices (USAOs) in California, with assistance from FAA’s Western
Pacific Region Flight Surgeon and Chief Counsel offices.

At the outset, it is important to note that while the United States has the most
complex aviation system in the world, it also is the safest. Multiple layers of
controls in air carrier operations and maintenance processes, along with FAA’s
oversight, are largely responsible for the extraordinary level of safety that we have
seen in the last 5 years.

Fraud committed against FAA’s aviation safety programs has been an
investigative priority for our office for more than 10 years. During that period we
have investigated numerous schemes involving falsified maintenance records,
fraudulent certifications for replacement parts, and fraudulently obtained pilot and
mechanic certificates.

Operation Safe Pilot was initiated in 2003 consistent with the emphasis we have
placed on investigating fraud schemes that impact aviation safety. It was a risk-
based, targeted initiative (versus a random sample) based in part on a 2002
investigation conducted by OIG special agents in California. The investigation
identified a private pilot who, for about 14 years, had been receiving SSA medical
disability payments while at the same time maintaining his FAA-issued Airman
Medical Certificate, which is required for issuance of a pilot certificate (aka,
license). 1

This situation did not seem possible to us—someone who represented to FAA that
he was medically fit to fly while at the same time claiming medical disability
benefits. This appeared to indicate a serious gap between FAA’s safety regulatory
program and SSA’s medical disability program, wherein one or the other program
was being defrauded. To determine if this was indicative of a more widespread
problem, we began Operation Safe Pilot, looking at a universe of about 40,000

1
    FAA-issued pilot certificates include: Airline Transport (pilots who can serve as pilot-in-
    command for a scheduled air carrier), Commercial (pilots who can fly for compensation or hire,
    including cargo), Private (pilots who fly for pleasure or personal business without accepting
    compensation), and Student (pilots who are being trained by an instructor for the purpose of
    obtaining their first full operating certificate).
                                                                                         2

pilots residing in Northern California. These pilots were part of a larger group of
more than 600,000 pilots in the United States who held Airman Medical
Certificates.

Of these 40,000 pilots, approximately 3,220 were found to be collecting some type
of SSA benefits, including disability benefits. In coordination with SSA, FAA,
and USAO officials, we focused our efforts on a smaller group of pilots receiving
disability benefits and—following consultation with FAA—selected 48 pilots
from this smaller group for investigation and potential prosecution, (a) recognizing
that the USAOs could pursue at most 50 cases due to their own resource
constraints, and (b) focusing on the most serious cases that the USAOs felt
warranted criminal prosecution. It is important to note that Operation Safe Pilot
was a criminal investigation and that it is not possible to substitute criminal
investigations for regulatory enforcement, which we believe is generally the most
appropriate way to police Airman Medical Certificate applications.

As a result of Operation Safe Pilot, the USAOs charged 45 of these 48 pilots with
making false statements to FAA on their Airman Medical Certificate applications.
All 45 pilots either plead guilty or were convicted at trial. Two pilots died during
the investigation (both held commercial pilot certificates), one from complications
stemming from his undisclosed medical condition and the other from causes that
were not conclusively linked to that pilot’s undisclosed condition. Prosecution by
the USAO against another pilot was declined due to the pilot’s severe mental
incapacity.

In addition, the National Transportation Safety Board (NTSB) and FAA have
documented hundreds of instances where pilots failed to disclose potentially
disqualifying medical conditions. We believe such findings, when combined with
the results of Operation Safe Pilot, reinforce the need to strengthen oversight of
FAA’s Airman Medical Certification Program. For example, on June 25, 2007,
NTSB issued safety recommendations 2 to FAA identifying examples of pilots
involved in accidents who had substance dependence histories, that FAA was or
should have been aware of, that were not considered in the medical certification
process. Similar to the circumstances identified in Operation Safe Pilot, NTSB’s
report highlighted problems with undisclosed medical conditions and the fact that
other government agencies often have information relevant to FAA’s medical
certification decision-making process that FAA should access and use.

Mr. Chairman, my testimony today will address three key points essential to any
discussion regarding how best to mitigate the safety risks posed by airmen who


2
    NTSB Safety Recommendation report; recommendation numbers A-07-41 through A-07-43.
                                                                                               3

falsify the Airman Medical Certificate application to conceal disqualifying
medical conditions.

     • The Airman Medical Certification Program is a key safeguard to ensure
       pilots are medically fit to fly;

     • Operation Safe Pilot disclosed a potential systemic problem that requires
       greater attention and oversight by FAA; and

     • FAA can take several actions to ensure that disabled pilots are not
       circumventing the medical certification process.


The Airman Medical Certification Program is a Key
Safeguard to Ensure Pilots are Medically Fit to Fly
FAA requires that each pilot have a valid medical certificate before being allowed
to operate an aircraft. To receive a medical certificate, pilots must complete an
Airman Medical Certificate application 3 and be examined by an FAA-designated
Aviation Medical Examiner (AME) 4 . To a great extent, the medical certification
process relies on an applicant’s honesty in self-disclosing his or her medical
history, especially any information about possibly disqualifying medical
conditions. In other words, an AME’s assessment to identify symptoms or
medical conditions requiring further review is highly dependent on the medical
history the applicant provides. Those who meet the appropriate medical
standards—based on an in-person medical examination and an evaluation of
medical history—are issued a medical certificate. 5

Three classes of medical certificates exist: first, second, and third. The first-class
certificate requires the most stringent medical examination, followed by the
second-class, then the third-class, which is the least stringent of all the medical
certificates. Airman Medical Certificate standards vary to accommodate all pilots,
from those who fly aircraft in commerce to those who fly for pleasure. For
example, airline transport pilots—who operate larger passenger aircraft—are
required to hold a first-class medical certificate, must meet stricter health

3
    FAA Form 8500-8, “Application for Airman Medical Certificate or Airman Medical and
    Student Pilot Certificate”
4
    An AME is a medical doctor authorized by FAA to perform physical examinations for issuance
    of FAA Airman Medical Certificates.
5
    The FAA medical examination is a general exam that reviews medical history (with attention to
    disqualifying medical conditions) and current medications; measures blood pressure, pulse,
    vision, and hearing; and includes a urine test. The examination is not designed to be a
    comprehensive physical.
                                                                                                   4

standards, and are reexamined on a more frequent basis than private pilots who
typically operate smaller aircraft not capable of carrying large numbers of
passengers, and therefore are only required to maintain a third-class certificate. 6

The Federal Air Surgeon also has identified certain medical conditions as
specifically disqualifying for issuance of all classes of Airman Medical
Certificates because these conditions could compromise a pilot’s ability to safely
operate an aircraft. 7 These include conditions ranging from heart problems to
neurological and psychiatric disorders, for which psychotropic drugs are often
prescribed—the use of which in itself is disqualifying.

As of June 2007, FAA’s database included 625,922 pilots with current Airman
Medical Certificates, consisting of 111,222 certificates with first-class privileges,
118,250 with second-class privileges, and 396,450 with third-class privileges.
During calendar year 2006, FAA received 439,390 Airman Medical Certificate
applications, issued 421,106, and denied 5,947. Ninety-one percent of the denied
applications (5,421) resulted from applicants who failed to provide additional
information requested in conjunction with their application or to take other actions
required by FAA, such as a letter from their doctor about a particular condition.
FAA was awaiting additional information on the remaining 12,337 applications,
which as of December 30, 2006, were still pending an issuance or denial decision.

Multiple Indicators Show Problems with Pilot Disclosures About Potentially
Disqualifying Medical Conditions. In addition to Operation Safe Pilot, both
NTSB and FAA have published reports reflecting that pilots did not disclose
serious medical conditions, which sometimes resulted in accidents and fatalities.
For example, a May 2006 FAA research report 8 of post-mortem toxicology for
4,143 pilots who died in aviation accidents between 1993–2003 disclosed that 387
(nearly 10 percent) were taking some type of psychotropic, cardiovascular, or
neurological medication not reported on their Airman Medical Certificate
applications. The report’s authors concluded that pilots who took psychotropic or
neurological medications and were involved in fatal accidents rarely reported the
medications or their underlying medical conditions to FAA.

In addition, our examination of the NTSB Aviation Accident/Incident Database,
using keyword searches, identified 128 aircraft accidents attributable to pilot

6
  Generally speaking, first-class certificates are valid for 6 calendar months after issuance,
  second-class certificates for 1 year, and third-class certificates for 3 years for pilots under age
  40 or for 2 years age 40 and over.
7
  Under certain circumstances, FAA may exercise discretionary authority—under special issuance
  provisions of Title 14, Code of Federal Regulations—to issue an Airman Medical Certificate to
  applicants with some of these conditions.
8
  FAA, May 2006, Comparison of Pilot Medical History and Medications Found in Postmortem
  Specimens (Final Report), Civil Aerospace Medical Institute, Oklahoma City, OK.
                                                                                         5

medical issues (excluding substance abuse) over the last 11 years 9 from a universe
of 22,927 accidents. Examples of these accidents include the following:

      • On January 31, 2004, while flying as a private pilot, a retired commercial
        airline pilot experienced an in-flight loss of control and crashed into the
        Pacific Ocean near San Pedro, California. Six months prior to the accident
        the pilot reported to FAA that he did not have a notable medical history and
        was not taking any prescription medication. However, a review of the
        pilot’s medical records after the accident revealed he had multiple medical
        conditions, including severe heart disease and dementia. NTSB determined
        the cause of this fatal accident was “incapacitation” during descent, which
        resulted in the pilot’s loss of control of his aircraft and an in-flight collision
        with water.

      • On July 15, 2001, a private pilot lost control of his aircraft and died while
        flying near Bridgeville, Delaware. A post-crash review of his medical and
        pharmacy records disclosed a history of Hodgkin’s disease, substantial
        damage to his gastrointestinal tract, hypothyroidism, gall bladder disease,
        and coronary artery bypass surgery. In addition, he required most of his
        calories to be delivered intravenously through a surgically placed port in his
        chest. However, on the pilot’s most recent Airman Medical Certificate
        application, he disclosed only that he was taking a medication for
        hypothyroidism.

         Toxicology reports indicated prescription antidepressant and narcotic-like
         painkiller medications in his blood at the time of the accident were more
         than 5 times higher than would be expected from the maximum
         recommended dosage. It was also discovered that the pilot was a doctor
         who wrote his own prescriptions. NTSB cited the cause of the accident as
         “incapacitation” due to the pilot’s inappropriate use of medication and
         depression. NTSB also cited FAA’s “inadequate certification/approval of
         the pilot’s medical certificate” as a contributing factor.

Possible Regulatory Changes to Extend Medical Certificate Expiration Dates
and Raise the Airline Pilot Retirement Age to 65 Underscore the Importance
of the Medical Certification Process. On April 10, 2007, FAA published a
Notice of Proposed Rulemaking 10 to extend the period for which Airman Medical
Certificates are valid. Specifically, for pilots under age 40, the validity of first-
class certificates would be extended from 6 months to 12 months, and third-class

9
     From January 1, 1996 through December 31, 2006.
10
     FAA, “Modification of Certain Medical Standards and Procedures and Duration of Certain
     Medical Certificates,” 72 FR 18092.
                                                                                  6

certificates from 3 to 5 years. Since extending certificate expiration dates will
result in fewer opportunities for AMEs to evaluate pilot medical fitness, it will be
even more important for FAA to take steps to ensure that pilots’ medical
conditions are fully disclosed when applications for Airman Medical Certificates
are processed.

In addition, FAA is currently considering possible rulemaking action to change the
mandatory retirement age for airline pilots from age 60 to age 65. Since the age
limit is in part directly related to the health and medical condition of pilots, FAA
actions to ensure compliance with disclosure requirements will be important in
light of this potential change.

Many differing views may exist within the aviation industry and medical
community regarding these possible rule changes. Notwithstanding the merits of
these proposed changes, one thing is clear—if either rule change is made, ensuring
the integrity of applicant disclosures on Airman Medical Certificate applications
will become even more important for FAA in administering its Airman Medical
Certification Program.


Operation Safe Pilot Disclosed a Potential Systemic
Problem that Requires Greater Attention and Oversight
by FAA
In 2003, our office initiated a proactive investigation, termed “Operation Safe
Pilot,” in part to determine whether a fraud scheme uncovered in 2002 reflected a
systemic problem. During a 2002 joint criminal investigation in California with
SSA/OIG, we determined a pilot had defrauded both FAA and the SSA Disability
Insurance Trust Fund Program by making false statements to doctors for the
purpose of maintaining his FAA private pilot’s certificate and obtaining SSA
benefits.

For approximately 14 years, this pilot had used two different doctors: one to
conclude he was in good physical health in order to maintain his airman medical
certificate and one to diagnose him with a disabling disease in order to
fraudulently receive SSA benefits. In 2002, following a 4-day trial in Federal
court, the pilot was found guilty of fraud. He was subsequently sentenced to serve
21 months in prison and 3 years of supervised release, as well as pay nearly
$200,000 in restitution to the Federal government. FAA also revoked his pilot’s
certificate and Airframe and Power Plant (A&P) mechanic’s license.
                                                                                               7

Operation Safe Pilot began with a universe of about 40,000 pilots, residing in
Northern California, who held current FAA-issued medical certificates. SSA
compared these pilots against its databases and produced an initial list that
identified approximately 3,220 pilots who were receiving some type of SSA
benefits, including disability benefits. This list of pilots was further refined after
seeking advice from the FAA Regional Flight Surgeon about what medical
conditions might disqualify a pilot from holding an Airman Medical Certificate.
Then, in consultation with USAOs in California, we selected potential
investigative targets focusing on:

     • Pilots collecting disability benefits from SSA’s Disability Insurance Trust
       Fund and Supplemental Security Income Program;

     • The apparent seriousness of the medical condition and falsification of the
       FAA Airman Medical Certificate application; and

     • Cases meeting USAO prosecutive requirements.

At our request, the FAA Regional Flight Surgeon then reviewed SSA disability
case files 11 and FAA medical files for selected pilots and, after doing so, provided
us a written assessment for 48 regarding their medical qualification to hold an
Airman Medical Certificate. The Flight Surgeon determined that these 48 pilots
would not have passed the airman medical examination had the physicians
conducting the examinations on behalf of FAA known about the pilots’
disqualifying medical conditions. FAA issued Emergency Revocation Orders
against 16 of these individuals and notified the remainder that their Airman
Medical Certificates were being suspended.

Criminal prosecutions were initiated against these 48 pilots, who held all classes
of pilot certificates. 12   Forty-five, including two medical doctors, were
subsequently indicted for and convicted of making false statements to FAA on
their Airman Medical Certificate applications. 13 In all 48 cases, the pilots failed to
notify FAA about their well-documented, severe, pre-existing medical conditions
as required when completing and certifying the truthfulness of their Airman
Medical Certificate applications.


11
   These files include physician evaluations, test results, and other medical evidence to support
   disability claims, as well as SSA initial and recurrent determinations of disability. In a few
   instances, SSA case files were not available for review. Alternatively, SSA provided other
   information describing the disabling conditions the disability recipients claimed.
12
   The 48 subject pilots ranged in age from 25 to 71, with an average age of 53 years, 7 months.
13
   Two pilots died during the investigation, and the USAO declined prosecution against another
   pilot.
                                                                                8

These pilots’ pre-existing medical conditions included heart, back, and mental
disorders and substance dependence. Many of these pilots had multiple
disqualifying conditions, with the most common condition (approximately 54
percent) being some type of mental disorder such as schizophrenia. This
illustrates the importance of ensuring that Airman Medical Certificate applicants
fully disclose their medical history to AMEs as these types of disorders may not
always manifest themselves during a general examination. Two examples of cases
prosecuted as a result of Operation Safe Pilot are summarized below:

   • An airline transport-rated pilot who flew cargo for a regional airline also
     received SSA disability benefits based on a diagnosis of schizophrenia and
     bipolar and psychotic disorders. The severity of this pilot’s disability was
     illustrated by medical file notations made by his therapist when the pilot
     disclosed that voices were telling him to jump off the Golden Gate Bridge.
     In addition, in 1992, the pilot had been committed to a mental crisis unit
     after being apprehended for trespassing on the grounds of San Quentin
     State Prison, at which time he said he was under the control of voices
     directing him to hike until exhaustion.

      However, when applying for FAA Airman Medical Certificates from 1991
      to 2005, this pilot denied ever having any mental health disorder. He did
      not mention on any of these medical certificate applications his extensive
      history of mental illness, the doctors he visited, the institutions where he
      had been committed, or the medications he had been prescribed. At the
      same time, he did not mention the fact that he had been granted SSA
      disability benefits because he was deemed mentally incapable of
      maintaining any employment. He was prosecuted for making false
      statements on his Airman Medical Certificate application, and FAA
      revoked both his medical and airline transport pilot’s certificates.

   • A private pilot was receiving SSA disability benefits and 100% disability
     from the U.S. Department of Veteran Affairs based on a diagnosis of Post-
     Traumatic Stress Disorder and anxiety-related disorders. This pilot also
     had been convicted for misdemeanors involving fighting and domestic
     violence. In addition, he once told a doctor that he had previously
     attempted suicide. During an interview with a DOT/OIG special agent, the
     pilot admitted to previously being arrested for the manufacture and use of
     methamphetamines and for relapsing and failing a urine test for
     methamphetamines while on a pre-trial diversion program.

      Nonetheless, when submitting applications for his Airman Medical
      Certificate in 2002 and 2004, he denied any mental disorders or criminal
      convictions. He was prosecuted for making false statements on these
                                                                                               9

        applications, and FAA revoked both his medical and private pilot’s
        certificates.


FAA Can Take Several Actions to Ensure that Disabled
Pilots are Not Circumventing the Medical Certification
Process
In July 2005, we sent a memorandum to the DOT Secretary, Deputy Secretary,
and FAA Administrator highlighting the results of Operation Safe Pilot. We
pointed out that FAA did not have a mechanism for (1) identifying certificated
pilots who are receiving medical disability benefits from Federal disability
providers such as SSA, the U.S. Department of Veterans Affairs, and the U.S.
Department of Labor and (2) determining whether the documented medical
conditions of those disability recipients would disqualify them from maintaining
their Airman Medical Certificates. We recommended that FAA:

     • Work with SSA and the other disability benefits providers to expedite
       development and implementation of a strategy to carry out these checks and
       take appropriate certificate regulatory enforcement action where
       falsifications are found; and

     • Consider revising its “Application for Airman Medical Certificate” to
       require applicants to explicitly identify whether they are receiving medical
       disability benefits.

In the past, FAA has implemented improved controls to strengthen oversight of
the Airman Medical Certification Program. For instance, as a result of FAA
rulemaking activities initiated in the late 1980s, the medical certification process
now requires use of the National Driver Register 14 to help identify airmen whose
driver’s licenses were revoked or suspended because of driving while intoxicated
to better detect undisclosed substance abuse. This action was taken, in part, in
response to our February 1987 audit report 15 that concluded that, procedurally, the
Airman Medical Certification Program was overly dependent on self-reporting by
pilots because 71–76 percent of pilots with prior convictions were not disclosing
convictions for drug and/or alcohol problems.

14
   The National Driver Register is a computerized database of information provided by State
   motor vehicle agencies about drivers who have had their licenses revoked or suspended or who
   have been convicted of serious traffic violations such as driving while impaired by alcohol or
   drugs.
15
   DOT/OIG, “Report on Audit of Airmen Medical Certification Program,” Report No. AV-FA-7-
   018.
                                                                                                10


Subsequent to this audit, OIG also conducted a proactive criminal investigative
initiative, Operation Pilot Match, which resulted in prosecution of numerous pilots
for falsifying their Airman Medical Certificate applications by failing to disclose
convictions for drug- and/or alcohol-related offenses.

In response to our recommendations, in April 2007 FAA initiated discussions with
SSA to match the FAA database of pilots with current medical certificates against
relevant SSA databases of disability benefits recipients. Both agencies have been
discussing how such a process could be structured under the Privacy Act to ensure
compliance with the law. We understand that FAA plans to (a) revise its Privacy
Act rules to specifically state that information collected may be shared with other
agencies for the purpose of identifying undisclosed medical conditions, and
(b) conduct periodic matches with SSA using the new process. We believe these
are appropriate first steps and once FAA refines a matching process with SSA, it
can begin developing similar processes with other Federal disability providers,
such as the U.S. Department of Labor.

FAA has also expressed its intention to revise the “Application for Airman
Medical Certificate” to explicitly ask the applicant about the receipt of medical
disability benefits. To obtain maximum benefit from this action, FAA should
ensure this question asks not only about the current receipt of medical disability
benefits, but also about whether the applicant has ever received or submitted a
claim for such benefits from any provider.

In conjunction with the foregoing actions, FAA should consider two additional
measures:

      • Conducting an education and outreach effort to ensure pilots are fully aware
        of their responsibilities for accurately disclosing their medical histories on
        the Airman Medical Certificate application and discussing their histories
        with AMEs during periodic medical examinations.

      • Administratively offering a grace period to hold harmless any pilots who
        self-identify to the FAA previously undisclosed and potentially
        disqualifying medical conditions. Such a measure could be designed to
        relieve pilots of fines and other penalties associated with violating certain
        FAA regulations, thereby providing an incentive for them to participate. 16
        FAA would need to make absolutely clear that all medical conditions
        disclosed would be evaluated, and, unless pilots were found to be medically

16
     FAA previously offered a similar program in the late 1980s to identify previously undisclosed
     drug- or alcohol-related convictions, resulting in more than 11,000 pilots making disclosures.
                                                                                11

      fit to fly, their Airman Medical Certificates would be subject to revocation.
      We believe such a measure would provide an immediate opportunity to
      prospectively mitigate the safety risk posed by undisclosed and potentially
      disqualifying medical conditions.

This concludes my statement, Mr. Chairman. I would be pleased to address any
questions that you or other Members of the Subcommittee may have.

                                        #
